Number

In The
Supreme Court of the United States
Samuel Collin Robinson,
Petitioner
v
Katherine Lyman Robinson,
Respondent

CERTIFICATE OF SERVICE
The undersigned does declare that on this date,
-Sgp-kwib^r 10**______ , 2019, as required by
Supreme Court Rule 29, the enclosed PETITION
FOR A WRIT OF CERTIORARI is being served on
counsel for the other party (three copies by hand
delivery). The petition is also being served on the
Attorney General of Colorado (three copies by mail).
In addition, the petition is being provided to the
courts below (l copy, each, by hand in Grand
Junction and by mail to Denver). Service by mail is
being accomplished by depositing envelopes
containing the petition with the United States Postal
Service, properly addressed, and with first-class
postage prepaid.

Those receiving the petition are:
Catherine Burkey, Counsel for Respondent (3 copies)
225 North 5th Street, Suite 701
Grand Junction, CO 81501
(970) 241-1924
Phil Weiser, Colorado Attorney General (3 copies)
1300 Broadway, 10th Floor
Denver, Colorado 80203
(720) 508-6000
District Court for Mesa County
125 North Spruce Street
Grand Junction, CO 81501
(970) 257-3625
Colorado Court of Appeals, and
Colorado Supreme Court
2 East 14th Avenue
Denver, CO 80203
(720) 625-5150
The foregoing is declared to be correct, under penalty
of perjury.
Samuel Collin Robinson
Petitioner
Post Office Box 4033
Grand Junction, Colorado 81502
(970) 314-9106

